In the Supreme Court of the United States
MELISSA CALABRESE, Petitioner
vs.

Uriita

STATE OF CALIFORNIA et. al., Respondents
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALSr

FILED
NOV 0 2 2020

FOR THE NINTH CIRCUIT

OFFICE OF THE CLERK
SUPREME COURT II R

PETITION FOR WRIT OF CERTIORARI

Melissa Calabrese, Pro se
2449 South El Camino Real
San Clemente, CA 92672-3351
(949) 369-6679
enviromed@msn.com

QUESTION PRESENTED
Whether the collateral order doctrine permits the imme­
diate appeal of a district court order denying appoint­
ment of counsel under 28 U.S.C. § 1915(e)(1) for an in
forma pauperis Plaintiff, who is gravely-mentally-disa­
bled [never able to provide for her own food or clothing
or shelter with high suicidality] who was denied her
Americans with Disabilities Act 42 U.S.C. § 12101
rights.

LIST OF PARTIES

Plaintiff - Appellant is Melissa Calabrese, Pro se.

IFP Marshall service was inexplicably repeatedly denied so these named Defend­
ants were never served the district court complaint summons:
State of California
County of Orange, CA
Providence St. Joseph Health
Mission Hospital Regional Medical Center
Brian Choi, M.D.
Tony Chow, M.D.
Afshin Doust, M.D.,
Mahdieh Fallahtafti, D.O.
Lawrence V. Tucker, M.D.
Tara Yuan, M.D.

Providence St. Joseph Health and Mission Hospital Regional Medical Center de­
clared “special appearances” on 04-03-20, filing their Motion to Dismiss. They
are the only Defendants in the 9th Circuit record.

n

TABLE OF CONTENTS

QUESTION PRESENTED

1

PARTIES TO THE PROCEEDINGS

11

m

TABLE OF CONTENTS
TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISION INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

4

I. IFP GRAVELY-MENTALLY-ILL DENIED TIMELY DUE PROCESS ARE
AT HIGH RISK FOR INCREASED MORBIDITY AND MORTALITY

4

II. THE CIRCUITS ARE DIVIDED ON WHETHER ORDERS DENYING
COUNSEL ARE IMMEDIATELY APPEALABLE
A.

5

The Third, Fifth, Eighth, and Federal Circuits Hold Orders Denying

Counsel Under § 1915(e) Are Immediately Appealable.

m

6

TABLE OF CONTENTS - CONTINUED
B.

The First, Second, Fourth, Sixth, Seventh, Tenth, Eleventh, and D.C.

Circuits Hold Orders Denying Counsel Are Not Immediately Appealable
C.

The Ninth Circuit Has Conflicting Orders Denying Counsel

8

10

III. THE CIRCUITS THAT HOLD THESE ORDERS ARE IMMEDIATELY
APPEALABLE ARE CORRECT
IV.

THIS

CASE

PRESENTS

12
A

QUESTION

OF

EXCEPTIONAL

IMPORTANCE

17

CONCLUSION

23

APPENDICES
APPENDIX A - Judgment of the United States Court of Appeals for the 9th
Circuit No. 20-55765 (Aug. 19, 2020)
APPENDIX B - Minute Order of the United States District Court for the Central
District of California (Jan. 17, 2020)
APPENDIX C - Minute Order of the United States District Court for the Central
District of California (Jun. 19, 2020)

IV

TABLE OF AUTHORITIES
CASES:
8, 13, 17

Appleby v. Meachum, 696 F.2d 145 (1st Cir. 1983)

passim

Bradshaw v. Zoological Soc. of San Diego, 662 F.2d 1301 (9th Cir. 1981)

5

Brown v. Board of Education of Topeka, 347 U.S. 483 (1954)

passim

Caston v. Sears, Roebuck & Co., 556 F.2d 1305 (5th Cir. 1977)

Christian v. Commerce Bank, N.A., No. 4:14CV00201 AGF, 2014 WL 2218726
18

(E.D. Mo. May 29, 2014)

6, 10

Cohen v. Beneficial Indus. Loan Corp., 337 U.S. 541, 546 (1949)
Cotner v. Mason, 657 F.2d 1390, 1392 (10th Cir. 1981)

10

Eisen v. Carlisle & Jacquelin, 417 U.S. 156, 170 (1974)

10

Ficken v. Alvarez, 146 F.3d 978, 979 (D.C. Cir. 1988)

10

Firestone Tire & Rubber Co. v. Risjord, 449 U.S. 368 (1981)

8, 9, 10, 13, 16

Flanagan v. United States, 465 U.S. 259 (1984)
Henry v. City of Detroit Manpower Dep't, 763 F.2d 757 (6th Cir. 1985)

9, 15
9, 13, 20

Hodges v. Dep’t of Corrections, State of Ga., 895 F. 2d 1360 (11th Cir. 1990)

10

Holt v. Ford, 862 F.2d 850, 851 (11th Cir. 1989) (en banc)

10

Hudak v. Curators of University of Missouri, 586 F.2d 105 (8th Cir. 1978)
Lariscey v. United States, 861 F.2d 1267 (Fed. Cir. 1988)
Marler v. Adonis, 997 F.2d 1141 (5th Cir. 1993)
Miller v. Pleasure, 296 F.2d 283, 283 (2d Cir. 1961)
v

6
7, 13, 15
7, 19
8

CASES - CONTINUED
8, 9, 18

Miller v. Pleasure, 425 F.2d 1205 (2d Cir. 1970)

14

Nelson v. Redfield Lithograph Printing, 728 F.2d 1003, 1005 (8th Cir. 1984)

6, 19

Pena-Calleja v. Ring, 720 F.3d 988 (8th Cir. 2013)
Perkinson v. White, 569 F. App'x 152 (4th Cir. 2014)

18

Peterson v. Nadler, 452 F.2d 754, 756 (8th Cir. 1971)

.17

Poindexter v. Fed. Bureau of Investigation, 737 F.2d 1173, 1188 (D.C. Cir. 1984)
Randle v. Victor Welding Supply Co., 664 F.2d 1064 (7th Cir. 1981)

15
9, 16

Ray v. Robinson, 640 F.2d 474 (3d Cir. 1981)

7, 16, 20

Robbins v. Maggio, 750 F.2d 405, 409 (5th Cir. 1985)

7

Sears, Roebuck & Co. v. Charles W. Sears Real Estate, Inc., 865 F.2d 22 (2d Cir.
1988)

9

Slaughter v. City of Maplewood, 731 F.2d 587 (8th Cir. 1984)

6, 16, 19

Spanos v. Penn Central Transportation Company 470 F.2d 806 (3d Cir. 1972)
United States v. Ryan, 402 U.S. 530, 533 (1971))
Welch v. Smith, 484 U.S. 903 (1987)

7, 12
16
11, 19

Weygandt v. Look, 718 F.2d 952 (9th Cir. 1983)
Wilborn v. Escalderon, 789 F.2d 1328 (9th Cir. 1986)

11
1,2, 11, 12

STATUTES AND RULES:
28 U. S. C. § 1254(1)

1

28 U.S.C. § 1291

5
vi

STATUTES AND RULES - Continued
28 U.S.C. § 1915

passim

28 U.S.C. § 2254

7

9, 10

42 U.S. Code § 1983

6, 7, 10, 11

42 U.S.C. § 2000
Americans with Disabilities Act 42 U.S.C. § 12101
FRCP Rule 17c(2)

2
3

Ca Central Distict Court Local Rule 83-2.2.1

Vll

2

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions this Court for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW
The order of the Ninth Circuit dismissing the interlocutory appeal for court-appointed counsel
No. 20-55765 is unpublished and reproduced at Appendix A to this petition.
“dismissal of complaint with leave to amend is not ap­
pealable); Wilborn v. Escalderon, 789 F.2d 1328 (9th Cir.
1986) (denial of appointment of counsel in civil case is
not appealable). Consequently, this appeal is dismissed
for lack of jurisdiction.”
Doc 80 - 9th Circuit No. 20-55765 - 08-19-20

The minute orders denying appointment of counsel the United States District Court of the
California Central District are reproduced at Appendix B and C.
JURISDICTION
The U.S. Court of Appeals for the Ninth Circuit 9th Circuit in interlocutory appeal
for court-appointed counsel No. 20-55765 was dismissed on 08-19-20. No petition for
rehearing was filed. Jurisdiction is invoked under 28 U. S. C. § 1254(1).

STATUTORY PROVISION INVOLVED
TITLE 28 Judiciary & Judicial procedure § 1915. Proceedings in forma pauperis

1

- (e)(1) The court may request an attorney to represent any person unable to af­
ford counsel.
STATEMENT OF THE CASE
The U.S. Court of Appeals for the Ninth Circuit denied interlocutory ap­
peal under the collateral order doctrine of a district court order denying appoint­
ment of counsel under 28 U.S.C. § 1915(e)(1) for an in forma pauperis Plaintiff,
who is gravely-mentally-disabled [never able to provide for her own food or cloth­
ing or shelter with high suicidality] citing Wilborn v. Escalderon.
Petitioner’s Americans with Disabilities Act 42 U.S.C. § 12101 case ended
in a Motion to Dismiss because Petitioner could not legally respond at all due to
documented disability and was denied any ADA assistance from her proposed
‘Next Friend’ under the Court’s Local Rule 83-2.2.1.
On 04-28-20 (Doc 62), Defendants opposed Court-appointed counsel claim­
ing there was no evidence Petitioner was gravely-mentally disabled (GMD). Yet
Defendants’ own hospital records document their diagnosis of Petitioner as GMD
as recently as September 2019.
On 07-22-20 (Doc 77) Defendants made the false claim of “Failure to Pros­
ecute” as the cause for their Motion to Dismiss, which was granted by the Court.
The Petitioner’s case was active in the U.S. Court of Appeals for the Ninth Circuit
at that time.

Defendants knew their claim was false and made no attempt to

correct it with the Court. Petitioner could not respond because she was unrepre­
sented.

2

The Court acknowledged that Petitioner’s psychiatric disability precluded
self-representation on 01-17-20:
“The Court finds Petitioner has demonstrated Plaintiffs
mental incompetence precludes her from appearing on
her own behalf in this action, and Petitioner has a sig­
nificant relationship to Plaintiff (as Plaintiffs mother)
and is dedicated to the best interests of Plaintiff.”
APPENDIX B
The IFP Petitioner was left with three choices by the Court:
1. Pay an attorney - precluded by grave-mental disability
2. Find pro bono counsel - precluded by grave-mental disability
3. Drop the ADA case and abandon her rights to Federal and State statutorialy required hospital care and discharge

Res ipse loquitor, Petitioner, as gravely-mentally disabled, could not file
anything without assistance and the result was NO DUE PROCESS.

Petitioner has relied her entire life on the proposed ‘Next Friend’, her
mother, Dorothy Calabrese, M.D. This includes but is not limited to food, cloth­
ing, shelter without government assistance and direct help with activities of daily
living.

Always following advise from the Federal Pro se Clinic attorneys, Dr.

Calabrese prepared all the paperwork in this case with Petitioner’s input, as the
proposed ‘Next Friend’ under FRCP Rule 17c(2):
Without a Representative. A minor or an incompetent
person who does not have a duly appointed representa­
tive may sue by a next friend or by a guardian ad litem.

3

The court must appoint a guardian ad litem—or issue
another appropriate order—to protect a minor or incom­
petent person who is unrepresented in an action.

Relentless efforts were made by Dr. Calabrese to obtain pro bono counsel,
which were unsuccessful due to:
1. the nature of Petitioner’s grave-mental illness
2. this ADA case for the rights of the mentally ill not being precedential
3. no potential for contingency fees from a money judgment
4. the challenges presented by the Covid 19 pandemic stress on resources
Denied interlutory relief, Dr. Calabrese legally filed declarations as the primary
case witness to preserve the record after final judgment. For the disabled, being
denied their statutory rights to the standard of care after 9 months, before there
can be any due process, risks preventable morbidity and mortality.
On 10-18-20, the U.S. Court of Appeals for the Ninth Circuit appeal was
filed - case No. 20-56133. A Motion for Stay is being filed in the appellate case
pending this Court’s decision on the entirely separate issue of interlocutory ap­
peals for district court denial of appointment of counsel.

REASONS FOR GRANTING THE WRIT
I.

IFP GRAVELY-MENTALLY-ILL DENIED TIMELY DUE PROCESS

ARE AT HIGH RISK FOR INCREASED MORBIDITY AND MORTALITY
Nothing can be adjudicated in the district court when Plaintiffs are unrep­
resented IFP gravely-mentally disabled. It served no purpose to go through the

4

NINE months required to dismiss the case when the Plaintiff is completely si­
lenced. Delay risks morbidity and mortality. Interlocutory orders are not de­
pendent on the merits of Petitioner’s case when she is unable to even present the
merits of her own case without ‘Next Friend’ and Court-appointed counsel.
Justice arbitrarily delayed for the gravely mentally ill but not de­
layed for those competent to self-represent is separate but not equal jus­
tice. This discrimination case harkens back to Brown v. Board of Educa­
tion of Topeka, 347 U.S. 483 (1954) The seriously mentally ill present case
complexity and exceptional circumstances of a different sort - an X-Ray
of the soul of who we are as Americans. Who will stand for equal justice
under law for the least among us if they are silenced in an ADA case in
the district court because of their disability?

II. THE CIRCUITS ARE DIVIDED ON WHETHER ORDERS DENYING
COUNSEL ARE IMMEDIATELY APPEALABLE
Over thirty years ago, Justices White and Blackmun dissented from a de­
nial of certiorari on whether denial of appointment of counsel orders were imme­
diately appealable collateral orders, asserting that the issue must be resolved by
this Court because of its importance and the developing division among circuits.
Welch v. Smith, 484 U.S. 903 (1987) (White, J. dissent from denial of writ of cer­
tiorari).
The collateral order doctrine applies appellate jurisdiction under 28 U.S.C.
§ 1291 to collateral orders and allows review of district court orders that:

5

(1) “conclusively determine the disputed question
(2) “resolve an important issue completely separate from the merits of the action;”
(3) are “effectively unreviewable on appeal from a final judgment.”
(listing the Cohen v. Beneficial Indus. Loan Corp., 337 U.S. 541, 546 (1949) fac­
tors).
Three decades after Justice White's prescient dissent, all thirteen circuits
have now weighed in and remain intractably divided. The circuits holding the
issue is immediately appealable correctly apply the collateral order doctrine.

A. The Third, Fifth, Eighth, and Federal Circuits Hold Orders Deny­
ing Counsel Under § 1915(e) Are Immediately Appealable.
Eighth Circuit: In Hudak v. Curators of University of Missouri, 586 F.2d 105
(8th Cir. 1978) cert, denied, 440 U.S. 985 (1978); see also Slaughter v. City of
Maplewood, 731 F.2d 587 (8th Cir. 1984)., the Eighth Circuit noted that it has
held that a denial of counsel under 28 U.S.C. § 1915 and 42 U.S.C. § 2000 is
immediately appealable because it causes irreparable harm to the plaintiff on
appeal of the final judgment. The Eighth Circuit has declined to extend its hold­
ing in Slaughter to habeas cases, however, on the ground that the district court
must evaluate the merits of a plaintiffs case to determine if counsel is appropri­
ate. Pena-Calleja v. Ring, 720 F.3d 988 (8th Cir. 2013). In habeas cases, unlike
in denial of counsel under 28 U.S.C. § 1915 and 42 U.S.C. § 2000, the court eval­
uates the plaintiffs likelihood of success—not just potential merit—when deter-

6

mining whether counsel is appropriate, so the counsel determination is not sepa­
rable from the merits. Id.
Federal Circuit: The Federal Circuit agrees that orders denying the appoint­
ment of counsel under § 1915 satisfy Cohen and are immediately appealable col­
lateral orders. Lariscey v. United States, 861 F.2d 1267 (Fed. Cir. 1988) (high­
lighting that decisions of counsel were “conclusively answered” even if decided
without prejudice).
Third Circuit:

In Spanos v. Penn Central Transportation Company 470 F.2d

806 (3d Cir. 1972), the Third Circuit determined that orders denying counsel un­
der 42 U.S.C. § 2000 are immediately appealable.. The Third Circuit has empha­
sized the separability of counsel orders made in civil cases. Ray v. Robinson, 640
F.2d 474 (3d Cir. 1981) (expanding on the Spanos holding). These orders are sep­
arable because they are not dependent on the merits of a plaintiffs case. See id.
at 477.
Fifth Circuit: The Fifth Circuit similarly held that orders denying counsel un­
der 28 U.S.C. § 1915 and 42 U.S.C. § 2000 are immediately appealable. See Caston v. Sears, Roebuck & Co., 556 F.2d 1305 (5th Cir. 1977); see also Robbins v.
Maggio, 750 F.2d 405, 409 (5th Cir. 1985). The Fifth Circuit has ruled differently
in cases not decided pursuant to the statutes at issue in this case. In, for example,
products liability suits or cases brought pursuant to 28 U.S.C. § 2254, the district
court determination of whether plaintiff receives counsel is tied to whether the
court believes plaintiff will be successful on the merits. See Marler v. Adonis, 997
F.2d 1141 (5th Cir. 1993) (declining to extend Caston to products liability suits

7

because “counsel accept products liability cases on contingent fees, even in the
weakest of cases”).

B. The First, Second, Fourth, Sixth, Seventh, Tenth, Eleventh, and
D.C. Circuits Hold Orders Denying Counsel Are Not Immediately
Appealable.
The First, Second, Fourth, Sixth, Seventh, Tenth, Eleventh, and D.C. Circuits
all erroneously relied on this Court's holding in Firestone to determine that orders
denying counsel are not immediately appealable as collateral orders. See Fire­
stone Tire & Rubber Co. v. Risjord, 449 U.S. 368 (1981) (holding that orders dis­
qualifying counsel in civil cases are not immediately appealable under the collat­
eral order doctrine).
First Circuit: In the First Circuit, orders denying counsel under 28 U.S.C. §
1915 are not immediately appealable, because the court reasoned that the orders
are not conclusively determined. Appleby v. Meachum, 696 F.2d 145 (1st Cir.
1983). The court cited to the theory that a district court can reassess a plaintiffs
need for counsel throughout the litigation and that these orders are reviewable
on appeal. See id.
Second Circuit: The Second Circuit also holds that orders denying counsel are
not immediately appealable. See Miller v. Pleasure, 425 F.2d 1205 (2d Cir. 1970),
cert, denied, 400 U.S. 880 (1970), overruling Mi Her v. Pleasure, 296 F.2d 283, 283
(2d Cir. 1961), cert, denied, 370 U.S. 964 (1962). The court reversed the its prior
holding in Miller on the rationale that there was a growing burden of appeals

8

and denial of counsel does not in itself destroy a plaintiffs claim. Miller v. Pleas­
ure, 425 F.2d 1205 (2d Cir. 1970). Instead, denial of counsel simply denies an
“added facility in the prosecution of his claim.” Id. Despite the law in the Second
Circuit that denial of appointment of counsel orders are not final orders, the court
evaluated a denial of request for counsel in a Title VII case “in the interest of
judicial economy.” Sears, Roebuck & Co. v. Charles W. Sears Real Estate, Inc., 865
F.2d 22 (2d Cir. 1988) The court allows the interlocutory appeal of orders denying
IFP status, and noted that “the same factors” are relevant to appellate review of
denial of counsel orders. Id.
Sixth Circuit: The Sixth Circuit holds that requests for counsel under 42 U.S.C.
§ 2000 and § 1983 are inherently not final decisions. Henry v. City of Detroit Man­
power Dep't, 763 F.2d 757 (6th Cir. 1985) (citing that because of the timing of
orders denying counsel—before the complaint, the record development, etc.—the
orders “should be presumed tentative”). The court relied on Firestone Tire & Rub­
ber Co. v. Risjord, 449 U.S. 368 (1981) and Flanagan v. United States, 465 U.S.
259 (1984) to determine orders disqualifying counsel in criminal cases are not
separate from the merits. See id.at 762.
Seventh Circuit: The Seventh Circuit determined that orders denying counsel
under 28 U.S.C. § 1915 for products liability claims are not appealable because
they are in essence reviewable after final judgment. Randle v. Victor Welding
Supply Co., 664 F.2d 1064 (7th Cir. 1981). Quoting Firestone Tire & Rubber Co.
v. Risjord, 449 U.S. 368 (1981), the Seventh Circuit emphasized that orders “at
worst... merely result[] in the delay caused by the need to retry the case.” See id.

9

at 1066-67.
Tenth Circuit:

The Tenth Circuit also relied on Firestone for the conclusion

that orders denying counsel under 28 U.S.C. § 1915 meet the Cohen conclusive­
ness and separability prongs, but are “fully reviewable after final judgment,” and
therefore “a single controversy.”. Cotner u. Mason, 657 F.2d 1390, 1392 (10th Cir.
1981) (citing Eisen v. Carlisle & Jacquelin, 417 U.S. 156, 170 (1974)).
Eleventh Circuit: The Eleventh Circuit determined that denials of counsel un­
der 28 U.S.C. § 1915 are not immediately appealable. Holt v. Ford, 862 F.2d 850,
851 (11th Cir. 1989) (en banc) (“such an order fails all three prongs of the Cohen
test”). It later held that Holt implicitly overruled Caston v. Sears, Roebuck & Co.,
556 F.2d 1305 (5th Cir. 1977), and seeing no basis for distinguishing denial of
counsel in § 1983 cases from Title VII cases, extended this holding to 42 U.S.C. §
2000 as well. Hodges v. Dep’t of Corrections, State of Ga., 895 F. 2d 1360 (11th
Cir. 1990).
D.C. Circuit: The D.C. Circuit was the last circuit to address this issue, and deter­
mined that orders denying counsel pursuant to 42 U.S.C. § 2000 are not immediately
appealable. Ficken v. Alvarez, 146 F.3d 978, 979 (D.C. Cir. 1988). The court reasoned
that these orders are not conclusive and that they are reviewable on appeal (and by
the district court throughout trial). See id. at 980-81.

C. The Ninth Circuit Has Conflicting Orders Denying Counsel
Ninth Circuit: The Ninth Circuit, as has previously been noted by this Court.
has created a complicated interpretation of whether denial of counsel orders are

10

immediately appealable. See Welch v. Smith, 484 U.S. 903 (1987) (White, J. dis­
sent from denial of writ of certiorari). Orders denying requests for counsel under
42 U.S.C. § 2000 were immediately appealable in the Ninth Circuit. Bradshaw v.
Zoological Soc. of San Diego, 662 F.2d 1301 (9th Cir. 1981) The court distin­
guished requests for counsel made in habeas proceedings, because in these cases
the court is required to look to the merits of the plaintiffs claim; therefore, the
orders are not separable under the collateral appeal doctrine. Weygandt v. Look
718 F.2d 952 (9th Cir. 1983).
The Ninth Circuit provides just one example of line drawing between stat­
utes when determining whether the denial of appointed counsel is immediately
appealable. In Bradshaw v. Zoological Soc. of San Diego, 662 F.2d 1301 (9th Cir.
1981), the court allowed the immediate appeal of a denial of appointment of coun­
sel order when brought as part of a Title VII suit. 662 F.2d at 1320 (allowing
appeal under 42 U.S.C. § 2000). But the court refused to extend the holding to
habeas proceedings in Weygandt v. Look, 718 F.2d 952 (9th Cir. 1983) (distin­
guishing habeas proceedings from Title VII suits because of separability con­
cerns).
In this case, there was no appellate adjudication at all despite the lower
court recognizing the Appellant’s grave mental disability. Interlocutory appeal
in this case was arbitrarily denied under Wilborn v. Escalderon, 789 F.2d 1328
(9th Cir. 1986) “denial of appointment of counsel in civil case is not appealable.”
Wilborn v. Escalderon was not an ADA case and there was no issue of mental

11

competence. The Ninth Circuit did rule that “The district court should have per­
mitted Wilborn leave to amend his complaint.” Indeed, in this case, the district
court did allow for leave to amend an amended complaint. Yet, the Court knew
for certain that amending was IMPOSSIBLE because:
1. Plaintiff was IFP, unrepresented and mentally incompetent
2. Plaintiffs proposed ‘Next Friend’ could not assist without facing 1 year
in jail, $1,000 fine and loss of her medical license for the unlicensed prac­
tice of law.
The dicta of Wilborn v. Escalderon cannot be binding in subse­
quent cases as legal precedent when the Plaintiff is not mentally compe­
tent.

III. THE CIRCUITS THAT HOLD THESE ORDERS ARE IMMEDIATELY
APPEALABLE ARE CORRECT
First, orders denying counsel are conclusively determined. Conclusively
determined orders are ones that are the district court's “last word on the subject.”
Bradshaw v. Zoological Soc. of San Diego, 662 F.2d 1301 (9th Cir. 1981) Final
orders include orders made without prejudice. See Spanos v. Penn Central Trans­
portation Company 470 F.2d 806 (3d Cir. 1972) An order denying counsel is a
complete, formal court order that impacts all future proceedings.
Some circuits have held that because district courts can reassess a plain­
tiffs need for counsel throughout litigation, orders denying counsel are not con-

12

elusive. See, e.g. Appleby v. Meachum, 696 F.2d 145 (1st Cir. 1983). This evalua­
tion incorrectly interprets the conclusively determined prong. When the district
court determines that a plaintiff is not entitled to counsel, the denial is a complete
and formal order that governs all further proceedings. Lariscey v. United States, 861
F. 2d 1267 (Fed. Cir. 1988)
Therefore such orders are effectively conclusive for the duration of the case.
Although the orders are potentially subject to revision by the district court, for
example if a meritorious case begins to develop, in practice courts rarely grant
plaintiffs counsel after an initial denial. It is also practically unlikely that an
indigent plaintiff will develop a meritorious case without the assistance of coun­
sel, particularly when the case involves complex legal issues.
Second, orders denying counsel are separable from the merits of an action.
An order is separable if the district court does not have to get enmeshed in the
case's substantive issues, but instead minimally inquires into the merits of the
action. See Henry v. City of Detroit Manpower Dep't, 763 F.2d 757 (6th Cir. 1985),
cert, denied 474 U.S. 1036 (1985). This includes cases where the underlying issue
in the order is of “critical importance” to the litigation. Id.
In Firestone Tire & Rubber Co. v. Risjord, 449 U.S. 368 (1981), this Court
left the question for another day of whether an order disqualifying counsel in a
civil case is separable from the merits. Firestone, 449 U.S. at 376. Three years
later, this Court determined that orders disqualifying counsel were not immedi­
ately appealable in a criminal case because the orders were not separable. Flana­
gan v. United States, 465 U.S. 259 (1984). To determine whether counsel should

13

be disqualified, the court must determine whether the defense was impaired,
which substantively analyzes the viability of a defendant's claim. Id. It is clear
that orders disqualifying counsel are not independent from the merits of the case.
In evaluating an order denying appointment of counsel on appeal, however, the
appellate court would not need to make any substantive evaluation of the plain­
tiffs case.
Conversely, under 28 U.S.C. § 1915, the district court's determination of
whether a plaintiff is entitled to counsel is wholly unrelated to the substance of
plaintiffs claim, or to any issues that occur during proceedings. In requests for
counsel made pursuant to 28 U.S.C. § 1915, the plaintiffs indigence is the only
relevant fact. The circuits have created different standards for what circum­
stances are just. For example, in the Eighth Circuit the determination of whether
plaintiff is entitled to counsel depends on whether the plaintiff has made a prim a
facie claim, the plaintiff has tried and failed to retain counsel, and whether the
“nature of the litigation is such that plaintiff as well as the court will benefit from
the assistance of counsel.” Nelson v. Redfield Lithograph Printing, 728 F.2d 1003,
1005 (8th Cir. 1984).
In general, entitlement to counsel is dependent on whether plaintiffs claim
is potentially meritorious, not on an actual determination of the merits. See, e.g.,
Bradshaw v. Zoological Soc. of San Diego, 662 F.2d 1301 (9th Cir. 1981) (discussing
that plaintiffs with potentially non-meritorious claims are sometimes unable to
find counsel, as “the provision for appointment of counsel would be wholly unnec­
essary if all meritorious claims attracted retained counsel”); see also Caston v.

14

Sears, Roebuck & Co., 556 F.2d 1305 (5th Cir. 1977) (comparing denials of IFP
status, which are immediately appealable collateral orders that do not evaluate
the claim's merits, to denials of counsel). When the district court does evaluate
the merits, it is not a problematic assessment of the validity of plaintiffs claim;
instead, the district court merely assures the claim is not “patently frivolous.”
Poindexter v. Fed. Bureau of Investigation, 737 F.2d 1173, 1188 (D.C. Cir. 1984).
The court need only determine that “the plaintiff appears to have some chance of
prevailing” for the litigant to meet the “meritorious” factor of the test. Id. at 1187.
Finally, orders denying counsel are not effectively reviewable upon final appeal,
because there are no other practical remedies available to a plaintiff once counsel
is denied. For immediately appealable orders, “appellate review must occur be­
fore trial to be fully effective.” Flanagan v. United States, 465 U.S. 259 (1984).
Here, whether the plaintiff can benefit from the appointment of counsel is essen­
tial to a pro se litigant's case. If the plaintiff is entitled to counsel, “he needs such
counsel now” to benefit at trial; otherwise, the plaintiff will be forced to litigate
the complex legal system without guidance. Lariscey v. United States, 861 F.2d
1267 (Fed. Cir. 1988)
If appeal of denials of counsel await the outcome of proceedings, only four
outcomes are possible:
1. The most likely outcome is that the pro se plaintiff will not be able to
pursue complex claims alone and will simply give up.
2. The pro se plaintiff engages in the full gamut of proceedings without the
assistance of counsel, and if the plaintiff is successful on the subsequent

15

appeal, the entire prior proceedings “would be declared a nullity: not an
efficient use of either personal or judicial resources.” Id.
3. In the exceedingly rare circumstance, the pro se plaintiff may find success
but at what price when there is serious mental illness and the patient
was denied timely statutorily mandated medically-necessary care, forced
homelessness, or death by suicide.
4. The pro se litigant could pursue claims to conclusion and lose on appeal.

This Court determined in Firestone Tire & Rubber Co. v. Risjord, 449 U.S. 368
(1981) that orders disqualifying counsel are not immediately appealable because,
in order to be unreviewable, “denial of immediate review would render impossible
any review whatsoever.” 449 U.S. at 376 (quoting United States u. Ryan, 402 U.S.
530, 533 (1971)). Disqualification of counsel is distinguishable from denial of
counsel, however, in part because “a decision on appellant's need for counsel must
be made before the trial if it is to be of any practical effect to him.” Ray v. Robin­
son, 640 F.2d 474 (3d Cir. 1981). Additionally, disqualification is distinguishable
because when counsel is denied, there are no other practical remedies available
to plaintiff. See Randle v. Victor Welding Supply Co., 664 F.2d 1064 (7th Cir.
1981) (Swygert, J., dissenting). Finally, the potential harm from disqualification
is not as great as outright denial of counsel, as denial effectively limits litigants'
access to the courts. See id.
The importance of having counsel at the beginning of litigation highlights
the need for immediate reviewability of denial of counsel orders. Slaughter v. City

16

of Maplewood, 731 F.2d 587 (8th Cir. 1984) (finding that the harm from denying
appointment of counsel “can be irreparable”); Peterson v. Nadler, 452 F.2d 754,
756 (8th Cir. 1971). A pro se plaintiff does not necessarily understand the com­
plexity of the law or possible errors committed at trial that must be preserved for
proper appeal. See Bradshaw v. Zoological Soc. of San Diego, 662 F.2d 1301 (9th
Cir. 1981).
Many of the circuits that determined that denial of counsel orders are not
collateral orders base their holdings on the reviewabihty prong. For example, the
First Circuit has held the pro se plaintiff can “persist long enough [in his case] to
raise the issue of appointed counsel along with any other issues he preserves in
his appeal from a final judgment.” Appleby v. Meachum, 696 F.2d 145 (1st Cir.
1983). This determination was over thirty years ago—as were many circuit de­
terminations—and htigation has only gotten more expensive, complicated, and
time consuming. A correct application of the collateral order doctrine, therefore,
allows the interlocutory appeal of orders denying the appointment of counsel.

IV.

THIS

CASE

PRESENTS

A

QUESTION

OF

EXCEPTIONAL

IMPORTANCE
After three decades, circuits remain in conflict with each other and
amongst themselves. Denying appointment of counsel for indigent plaintiffs cer­
tainly hinders a plaintiff's case, but refusing to hear the appeal from such a denial
often hobbles a case before it ever has a chance to get out of the gate. The issue
of whether a denial of appointment of counsel order is immediately appealable as

17

a collateral order has confused the circuits, caused line drawing between statutes,
and caused one circuit to switch positions in less than a decade. Circuit courts
need guidance from this Court regarding the proper analysis of the collateral ap­
peal doctrine in regards to indigent plaintiffs and their denied appointment of
counsel.
As previously mentioned, circuits remain divided as to whether plaintiffs
can immediately appeal the denial of appointed counsel, which creates vastly dif­
ferent court determinations based on which federal court the plaintiff brings suit.
Although this confusion stems from the early 1980s when this issue was first
litigated, determining whether the denial of appointment of counsel is immedi­
ately appealable has continued to plague the courts. See, e.g., Perkinson v. White,
569 F. App'x 152 (4th Cir. 2014) (holding that denial of appointment of counsel
orders under § 1915 are not appealable as a collateral order); Christian v. Com­
merce Bank, N.A., No. 4:14CV00201 AGF, 2014 WL 2218726 (E.D. Mo. May 29,
2014) (holding that same orders under § 1915 are immediately appealable as col­
lateral orders). Without a determinative indication by this Court, the circuits will
continue to diverge in their application of the collateral order doctrine, providing
a disservice to indigent plaintiffs in the process.
Apart from the confusion between the circuits, this issue has created divi­
sion within the circuits themselves, causing judges to invert on position and craft
minute distinctions between statutes.
In the Second Circuit, the court first held in Miller that a plaintiff could
immediately appeal the denial of appointed counsel under 28 U.S.C. § 1915. 296

18

F.2d at 283 (affirming district court's decision). However, a mere nine years later,
a different panel reversed position in the same case. See I. The court held that a
plaintiff could not immediately appeal such orders because it not only required
the court to get involved in the merits of the case, but also contributed to the
increased burden on the appellate court system in the last decade. Id.
The Fifth and Eighth Circuits have similar distinctions. Compare Caston
v. Sears, Roebuck & Co., 556 F.2d 1305 (5th Cir. 1977) (allowing appeal in Title
VII cases), with Marler v. Adonis, 997 F.2d 1141 (5th Cir. 1993) (refusing to ex­
tend Caston to product liability suits); compare Slaughter v. City of Maplewood,
731 F.2d 587 (8th Cir. 1984) at 588 (allowing immediate appeal for Title VII),
with Pena-Calleja v. Ring, 720 F.3d 988 (8th Cir. 2013) at 989 (declining to extend
Slaughter to § 1983 claims).
Even if line drawing is appropriate, this Court should provide guidance on
which statutes should allow immediate appeal and which statutes fall outside the
collateral appeal doctrine so that the circuits are unified in application. And
which Plaintiffs require disability accommodations that include ap­
pointed counsel.
This Court has previously recognized the confusion among and within cir­
cuits in previous petitions for certiorari during the 1980s that were all subse­
quently denied. Justice White, joined by Justice Blackmun, explained that the
continued confusion demonstrated by the Second and Ninth Circuits “warranted
the Court's] granting certiorari” in his dissent in Welch v. Smith, 484 U.S. 903
(1987).

19

The circuit split in the 1980s has only become more entrenched as every
circuit has now decided whether the collateral appeal doctrine allows for imme­
diate appeal of the denial of appointment of counsel orders. Without further guid­
ance from this Court on a “plainly recurring question,” the district and circuit
courts will continue to hold differently on whether immediate appeal is appropri­
ate. See Henry v. City of Detroit Manpower Dep't, 763 F.2d 757 (6th Cir. 1985)
(White and Blackmun, J., dissenting). Allowing courts to interpret the collateral
appeal doctrine differently results in immediate relief for some indigent litigants
and likely devastation for others.
Allowing immediate appeal of denial of appointment of counsel orders will
provide greater access to the courts and promote judicial economy. Granting cer­
tiorari over this conflict will finally determine whether indigent litigants have
the ability to immediately appeal the denial of appointed counsel orders, thus
providing greater access to the courts. If indigent plaintiffs have to wait until a
final order has been determined, many will be forced to drop legitimate claims,
and others will struggle through the legal process but fail to preserve issues for
appeal. By denying jurisdiction over the denial of appointment of counsel orders,
courts are not only inhibiting access to counsel to those who need it most, but are
also creating incoherent records to be sorted through later on appeal.
For the appointment of counsel to have any “practical effect,” counsel must
be appointed at the start of the case. See Ray u. Robinson, 640 F.2d 474 (3d Cir.
1981) at 477. Counsel benefits the judicial process by effectively developing the
record and introducing legal arguments to preserve for appeal on a level that a

20

layperson—but especially an indigent plaintiff—would simply not be able to
match. Pro se litigants do not generally have the skills or resources to develop the
record in a way to help preserve appealable issues. The gravely-mentally-ill have
no chance without Next Friend and appointed counsel. Meanwhile, they prospec­
tively lose their statutory rights to care, waiting for equal justice. Justice delayed
is justice denied.
If indigent plaintiffs are forced to wait until a final decision to appeal the
denial of appointment of counsel, the record below will undoubtedly come to the
appellate judge in disarray. If a pro se litigant does successfully bring his case to
the appellate court, the judge will have to spend time parsing through an inco­
herent record to determine any merit to the claim and the necessity of counsel.
See Bradshaw v. Zoological Soc. of San Diego, 662 F.2d 1301 (9th Cir. 1981).
(stating that a pro se appeal provides a “guarantee that the resources of the court
and the parties would be senselessly dissipated in the process”). Without the as­
sistance of counsel from the beginning, the plaintiff “would be bound by the inev­
itable prejudicial errors she would make at her first trial.” Id. at 1311-12.
Even if an appellate judge grants a new trial with appointed counsel, the
case essentially has to begin again, causing a greater strain on judicial time and
resources than an immediate collateral appeal. Judicial economy will be better
served if the appellate court can determine whether a plaintiff requires counsel
to navigate complex legal matters as a collateral issue at the outset of the trial.
It does not serve the judiciary's best interests to allow an indigent plaintiff to

21

develop a record in a case involving complex legal issues, likely committing prej­
udicial errors in the process that are difficult or impossible to cure on appeal. By
waiting for a final decision, “the effectiveness of appellate review will be seriously
impaired by the very nature of the order” because of the state of the record.”
Bradshaw v. Zoological Soc. of San Diego, 662 F.2d 1301 (9th Cir. 1981)
Laypersons do not have the same access to resources or the knowledge to
adequately represent themselves in court when dealing with complicated legal
issues. See Caston v. Sears, Roebuck & Co., 556 F.2d 1305 (5th Cir. 1977) at 1308
(stating that a layperson “has little hope of successfully prosecuting his case to a
final resolution on the merits”). Justice and efficiency are better served by provid­
ing counsel immediately to indigent plaintiffs faced with such complex legal mat­
ters.
The purpose behind the in forma pauperis statute, moreover, was to pro­
vide effective counsel to plaintiffs when they could not otherwise afford it. Deny­
ing an appeal of such counsel until a final decision on the merits cuts contrary to
this principle. Many litigants are forced to abandon their cases before trial com­
mences if not provided counsel to assist in navigating a complex legal field. Oth­
ers may try to continue through trial but fail to preserve issues for appeal. Both
of these outcomes make reviewing the denial of appointment of counsel orders
only after a final decision insufficient to address the needs of indigent plaintiffs.
The appointment of counsel is generally outcome determinative for indigent
plaintiffs. And thus, the denial of appointment of counsel is the single, most im­
portant judicial order of the entire litigation. But since the order predates any

22

record development and any legal theories, it falls completely outside the merits
of the case and should be recognized as collaterally appealable.

CONCLUSION
For the foregoing reasons, the petition should be granted, the judgment below
should be reversed, and the case should be remanded for further proceedings.

Respectfully submitted,

('dj/hAJjy<JL

Melissa Calabrese 11-25-20

23

A notary public or other officer completing this certificate verifies only the identity of the individual who signed the
document, to which this certificate is attached, and not the truthfulness, accuracy, or validity of that document.__________

ACKNOWLEDGMENT
-a.

STATE OF CALIFORNIA )
COUNTY OF
On

ss.

)/y?
,

before me,

a

Notary Public, personally appeared MELISSA CALABRESE, who proved to me on the basis
of satisfactory evidence to be the person whose name is subscribed to the within instrument and
acknowledged to me that she executed the same in her authorized capacity, and that by her
signature on the instrument the person, or the entity upon behalf of which the person acted,
executed the instrument.
I certify under penalty of perjury under the laws of the State of California that the
foregoing paragraph is true and correct.
WITNESS my hand and official seal.
lff.
JAMES PAK
Notary Public - California
Orange County
Commission # 2190333
My Comm. Expires May 6,2021

z

>

/SEAL/

Page 6 of 6
(Initials)

